Supreme Court, U.S.
FILED

20- !M3k

NOV 2 7 2020
OFFICE OF THE CLERK

tfje Supreme Court of tfie {Hmteb States:
MARTY D. FOUST
Petitioner
v.
LAWRENCE BROTHER’S INC. AND AMERICAN
INTERSTATE INSURANCE COMPANY
Respondents

Virginia Supreme Court
Record No. 190423
Virginia Court of Appeals
Record Nos. 1647-17 - 3 and 0196-18-3
Virginia Worker’s Compensation Commission
V W C File No. VA 00000463553
Petition for Writ Of Certiorari

Marty D. Foust
107 High Street
Princeton, WV 24740
304-31-4920
Martvtumerl955@gmail.com

RIGINAL

QUESTIONS PRESENTED
1. Should an official of the Virginia Supreme Court make false statements?

l

2. Should an official of the Virginia Supreme Court tell the truth about
information that they read in document sent by the Petitioner?
3. Should an official of the Virginia Supreme Court hold evidence from the
Justices of the Virginia Supreme Court, knowing that it will injure the Petitioner’s
chances for a rehearing and knowing that it might or will help the Petitioner or re­
hearing?
4. Should an official of the Virginia Supreme Court tell or hide information from
the Justices of the Virginia Supreme Court that the mail that was sent to the Court
was delayed by the United State Postal Service, that was mailed by certified mail
on June 22, 2020, but did not get to the Virginia Supreme Court until July 16,
2020? That is 24 days later!
5. Should an official of the Virginia Supreme Court with - hold documentation
from the Justices of the Virginia Supreme Court sent by the Petitioner?
6. Should an official of the Virginia Supreme Court violate the Rights of the
Petitioner, Human Rights, Civil Rights, Bill of Rights, Fifth Amendment Rights,
Eleventh Amendment Rights, Fourteenth Amendment Rights of the United State
Constitution?
7. Does the Virginia Court of Appeals have Jurisdiction over Crimes committed in
the Virginia Worker’s Compensation Commission (VWCC) arena or area, where
crimes were committed against the Injured Worker or Appellant?

8.

Does the Virginia Court of Appeals have authority to subpoena records from the

vwcc?
9. Does the Virginia Court of Appeals have the right to delay a motion and the
ponse to the Appellant from the Appellant documents sent to the Court of
res
Appeals of Virginia on 07/30/2018 and did not receive a response from the court
until December 6,2018, asking the Court of Appeals to subpoena the records ftom
Virginia Worker’s Compensation Commission, with the time, date, Month and
year; so that he (the Appellant) could finish his opening brief to the Court? It was
3 months later that I got the response and the Virginia Court of Appeals had made
their decision on January 29, 2019; but my dead-line was November 9, 2018 to get
Court of Appeals of Virginia, I didn’t receive the records
my opening brief into the
with the time, date, month and year, so I could get the table of Authorities on the
page’s that they needed to go. To prove to the Court that the Defendants claim was
construed by Worker Comp Fraud and other serious crimes of res — Judicata Claim
be denied?
10. Should a Commissioner of the Virginia Workers Compensation follow the
rules of the Virginia Worker’s Compensation Act?
11. Does an Attorney, that the Claimant hires, suppose to follow the professional
guidelines, to tell the truth about the date he was hired to represent the Claimant?

12. Should an attorney, that the defendants hires to represent the defendants,
follow the professional guidelines?

13. Should a Commissioner of the Virginia Worker’s Compensation write an
opinion, when no one was at the hearing, no claimant, no attorney for either side
and the Defendants’ Insurance Agent was not there either?
14. Does a Commissioner of the Virginia Worker’s Compensation Commission
have the right to write a decision or opinion on the claimant’s “weekly average
wages» when Insurance Fraud has been committed, and he know this; plus no one
was at the hearing to discuss the Weekly average Wages?
15. Should the Employer (Lawrence Brothers) and its Insurance Company
(Amerisafe) follow The Code of Virginia Title 65 Workers’ Compensation,
Chapter 65.2-101 . Definitions, as used in this title, “average weekly wage” means
(b)?

16. Should the Virginia Workers’ Compensation Commission give a claimant 3
physicians to choose from a panel like it is required in the VWC Act?
17. Does the Employer (Lawrence Brothers) and their Insurance Company
(Amerisafe) suppose to give a claimant, Physicians for all his medical condition,
after he is discharged from the hospital for that when the bum injury caused?
18. Does a hospital like Wake Forest Baptist Hospital suppose to tell a patient or
claimant what caused his strokes and spinal injury after the MRI was done?
19. Does a doctor (Kamal S. Ajam) of the Brookstown Pain Clinic in Winton
Salem, North Carolina suppose to tell a patient or claimant that it was his
medication that he prescribed to the patient caused his 2 strokes m 2012 and 2013?
20. Does a doctor (Kamal S. Ajam) suppose to go back into the medical records
and change the (drug profile) from the original (drug profile) which red in the
medical records of Patient, Marty D Foust. No known allergies, but was changed
to allergic to Atarax; to cover up his medical malpractice and to cover up for the
Employer and their Insurance Company, so that they wouldn’t be compensated for
what he has done?

steal, destroy and cause the mail to be delayed from getting to the court on time
and plus hire people to break into your home and steal mail receipts and documents
that will help the claimant to prove his case. That they have mentioned above plus
2 Attorney’s that I hired Charles Stacy and Patrick Agnew and Dr. Kamal S. Ajam.
A conspired together to sabotage my worker s compensation claim?
29. Should the employer follow OSHA fire watch policy?
List of Parties
All Parties appearing in caption of the case on cover page.
Marty D. Foust
Petitioner - Pro-Se
and
Lawrence Brothers’ Inc and American Interstate Insurance Company
Respondents

TABLE OF CONTENTS
Page
Question Presented.......

1-6

List of Parties ...............

6
8-12

Table of Authorities ....

Opinion Below

15

Constitutional and statutory

12
12-15

Provisions Involved ..........
Statement of Case ......................

16

Reason for Granting The Petition

42
42

Conclusion .................................

43

Proof of Service .........................

INDEX TO APPENDICES

APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E

7

TABLE OF AUTHORITIES

Cases
Advance Auto & Indem. Inc. Co. v Craft 63 Va. App. 502,514-19 (2014).
Pages 16-42
Allen Realty Corp. v Holbert, 27Va 441, 450, 318S.E. 2d 592, 597 (1984).
Pages 16-42
Allen & Rock, Inc. v. Brigg, 28Va. App. 662,670,580S.E.2d 335,338 (1998).
Pages 16-42
Avon Products, Inc. v. Ross, 14 Va. App. 1, 8,415S.E. 2d 225,229 (1992).
Pages 16-42
Bullock v United States, 763 F. 2d 1115, 1121 (10th Cir. 1985).
Pages 16-42
Butler v. City of Virginia Beach, 22 Va. App. 601, 605,471 S. E. 2d 830, 832
(1996). Pages 16-42
Cohn v. Knowledge Connections Inc., 266 Va. 362, 368, 585 S. E. 2d 578, 581
(2003)

Pages 16-42

Dunham v. Dunham, 57 111. App.475 (1894) affirmed 162111.589 (1896).
Pages 16-42
E.G. Alouf v. Roanoke Memorial Hospital VWC File No. 120-04-48 (April 11,
1994) Alsop v. Marriot Corp, 600IG.12 (1981).
Pages 16-42

8

Elliott v. Shore Stop, Inc., 238 Va. 237, 245, 384 S.E. 2d 752 (1989).
Pages 16-42
Filak v. George, 267 Va. 612,618, 294 S.E. 2d 610,613 (2004)
Pages 16-42
Fiske v. Buder (C.C.A. 8th, 1942) 125F 2d 841.
Pages 16-42
Federal Relief from Civil Judgement (1946) 55 Yale L.J.623. see also 3 Moore s
Federal Practice (1938) 3254 et seq.
Pages 16-42
Fredman Brothers Furniture v. Dept. Revenue, 109111.2d 202, 486 N.E. 2d 893
(1985)

Pages 16-42

Graves v. Graves, 132 Iowa 199, 109 N.W. 707 (1906)
Pages 16-42
Harris v. T. I. Inc., 246 Va. 63, 413. S.E. 2d 605 (1992)
Pages 16-42
Hazel - atlas Glass Co. v. Hartford Empire Co. (1944) 322 U.S. 238
Pages 16-42
Jefferson Standard Life Inc. Co. v. Hedrick 181 Va. 824, 835,27 S.E. 198, 203
(1943).
Jordan v. Sauve, 219 Va. 448,452, 247 S. E. 2d 739, 741 (1978)
Pages 16-42
Jirnd v. Town of Hemstead, F. 2d 1271,1283-84 (2d Cir. 1991) criminal liability
for a Hobbs Act - predicated racketeering violation);
Pages 16-42
9

Kenner v. C.I.R., 387F. 3d 689 (1968) Moore’s Federal Practice, 2d ed. p 51211
60.23

Pages 16-42

Lloyd V. Smith, 150 Va. 132, 145,42 S. E. 363 (1928)
Pages 16-42
Marbury v. Madison, 5 US 137
Pages 16-42
Black Law Dictionary Fifth Edition Page 594. Then take into account the case of
McNally v

. U.S. 483 U.S. 350,371-372 Quoting U.S. v. Holzer, 816F. 2d.304, 307.

Pages 16-42
Harrison v. Coddington, 662 P.2d. 155,135 Ariz. 480 (1983)
Pages 16-42
Nationwide Mutual Ins. Co; v. Hargraves 242 Va. 88, 405 S.E. 2d 848 (1991)
Pages 16-42
Norman v. Zieber, Or at 202 -03.
Pages 16-42
Owen v. Independence, 100S. C. T. 1398, 445 U.S. 662.
Pages 16-42
The People of the state

of Illinois v Fred Sterling 357111.354; 192 N.E. 229 (1934)

Pages 16-42
People v. Zajic, 88111.App.3d 477,410, N.E. 2d 626 (1980)
Pages 16-42
Pope v. Overbay, 196 Va. 288, 83 S.E. 2d 365.
Pages 16-42
Sensenbrenner v. Rust, Orling & Neal, Architects Inc., 267 Va. 612, 618, 594 S. E.
2d 55, 58 (1988)
Pages 16-42
10

Spence v. Griffin, 236 Va. 21, 28, 372 S. E. 2d 595, 599 (1988).
Pages 16-42
Thomas Stasel v. The American Home Security Corporation, 36211. 350; 199 N.E.
798 (1935). Pages 16-42
Tuscarora v. B.V.A., 218 Va. 849, 858,241 S.E. 2d 778 (1978)
Pages 16-42
The three - judge court had jurisdiction of all the issues and should have decided
them. Louisville N. Ry. Co. v Garnet, 231 U.S. 298.
Page 16
A party may be prosecuted under section 1503 for endeavoring to obstruct Justice,
United States v. Neal, supra; United States v. Williams, 874F. 2d 968, 976 (th Cir.
1989); it is no defense that such obstruction was unsuccessful. United States v.
Edwards, 36 F. 3d 639, 645 (7th cir. 1994); United states v. Neal, spra; or that it
was impossible to accomplish, United states v. Bucey, 876F. 2d 1296, (9 cir.),
cert, denied, 493 U.S. 1004 (1989); United States v. Brimberry 744 F 2d 580 (7th
Cir. 1984), cert, denied, 481 U.S. 1039 (1987).
Pages 16-42
Should a judge not disqualify himself then the judge is violation of the Due
Process Clause of U.S. Constitution. United States v. Sciuto, 52 IF. 2d 846, 845
(7th Cir. 1996). (“The right to a tribunal free from bias or prejudice is based, not on
section 144, but on the Due Process Clause”).
Pages 16-42
In 1994, the U.S. Supreme Court held that “Disqualification is required if an
objective observer would entertain reasonable question about the judges’
impartiality. If a judge’s attitude or state of mind lead a detached observer to

li

conclude that a fair and impartial hearing is unlikely, the judge must be
disqualified”. [Emphasis added] Liteky v U.S., 114S. Ct. 1147,1162 (1994).
Pages 16-42
The court in Yates v Village of Hoffinan Estates, Illinois, 209 F. Supp.
(N.D. 111. 1962) Pages 16-42
The U. S. Supreme Court, in Schever v. Rhodes, 416 U.S. 232, 94S. Ct. 1683,
Pages 16-42
1687(1974)
Whomever knowingly and willfully executes, or attempts to execute, scheme or
artifice (1) to defraud any health care benefit program: (2) to obtain, by means of
false or fraudulent pretense, representations or promises, any of the money or
property owned by, or under the custody or control of any health care benefit
in connection with the delivery of or payment for health care benefits,
program in
items, or services shall be fined under this title or imprisoned not more than 10
years or both If the violation results in serious bodily injury (as defined in section
1365 of this title) such person shall be fined under this title or imprisoned not more
than 20 years, or both and if the violation results in death, such person shall be
fined under this title or imprisoned for any term of years or for life or both 18
U.S.C. 1347 (a): United States v. Holden, 806 F. 3d 1227, 1231 - 32 (9th Cir 2015)
(citing United States v. Hickman, 331F.3d 439,445-46 (5th Cir 2001).
Pages 16-42
Any judge or attorney who does not report the above judges for treason as required
by law may themselves be guilty of misrepresentation of treason, 18 U.S.C. section
2382.

Pages 16-42

Constitutional Provisions
Fifth Amendment, U.S. Constitution
12

Eleventh Amendment, U. S. Constitution
Fourteenth Amendment, U. S. Constitution
Statutory Provisions
The Virginia Workers Compensation Act
Code of Virginia, Title 65.2. Workers Compensation, Chapter 1.
Definitions and General Provisions, *65.2-101 Definitions
“average weekly wage” means: (b)
Code of Virginia
Title 65.2. Workers’ Compensation
Chapter 6. Notice of Accident; Filing Claims.
Medical attention and Examination
*65.2-603

Code of Virginia
Title 18.2. crimes and Offenses Generally
Chapter 6. Crimes Involving Fraud
* 18.2-204. False Statement for the purpose of defrauding industrial sick benefit
company
Code of Virginia
*8.5A-109. Fraud and forgery
Conspiracy to Obstruct Justice Act42 U. S. C. section 1985 - Conspiracy to interfere with Civil Rights
Va. Code *17.1-202
Va. Code * 17.1-214
Va. Code *18.2-171
Va. Code *17.1-22
Virginia Human Rights Act (Va. Code Ann. **2:2-3900-03).
2014 Virginia Code
13

Title 18.2 - Crimes and Offenses Generally
*8.2-514. Racketeering Offenses
18. U. S. C. *241
18. U. S. Code *242
18. U. S. Code *287
18. U. S. *371
28 U. S. Code *455
18 U. S. Code *1001
18 U. S. Code *1031
18U.S. Code *1033
18 U. S. Code *1621
18 U. S. Code * 1961 (1) (A) (B) (2) (3) (4) (5), Racketeering (1)
18 U. S. Code * 1951 (a) (b) (2) The Hobbs Act
18 U. S. Code *1035. False Statement relating to health care matter
18 U. S. Code * 1347
18 U. S. Code * (1341, 1343, 1346) Obstruction by Mail or Wire Fraud
31 U. S. Code * 3729 (a) (1) (A) (B) E False Claims (a) Liability for Certain Act
Obstruction of Justice by Deception 18 U. S. Code *1503 and 1512, 18 U. S. Code
*1623, 18 U.S. Code *1621, 1622 and 1001
Rule 29. Filing and service of Documents; Special and Service of Documents:
Special Notification; Corporate Disclosure Statement
28 U. S. Code *1746
Federal Civil Rights Statutes
Title 18, U. S C., Section 249 - Matthew Shepard and James Cyrd, Jr., Hate
Crimes Prevention Act
Title 18, U. S. C., Section 245-Federally Protected Activities

14

United States v. Dotterweich, 320 U. S. 277 (1943), and United States v. Park, 421
U. S. 658 (1975)
The Commerce Clause of the U. S. Constitution
Rule of the Court
Professional Guideline An agency of the Supreme Court of Virginia
The Virginia State Bar
Professional Guideline
Rule 3.1
Rule 3.2
Rule 3.3
Rule 3.4
Rule 3.5
Rule 3.6
Rule 3.7
Rule 3.8
Rule 3.9
Rule 59
Rule 59 (b)
Rule 60
Rule 60 (b)
NJSA 34:15-79
N J Workers’ Compensation Statute, NJSA 34:15.57.4.
Opinions Below
Supreme Court of Virginia for re-hearing-denied, Record No. 190423
Supreme Court of Virginia, Writ Hearing, Lack of Jurisdiction
Court of Appeals of Virginia Records Nos. 1647-17-3 and 0196-18-3
Decision based on merits
15

Virginia Workers’ Compensation Commission V W C File No. Va 00000463553
Jurisdiction
Virginia Supreme Court “Orders” Record No. 190423
Melissa Layman - June 16,2020
Douglas B. Robelen
Muriel -Theresa Pitney — Letter - July 17,2020
Douglas B. Robelen
Douglas B. Robelen - March 2, 2020 writ Hearing
Virginia Court of Appeals Record Nos. 1647-17-3 and 0196-18-3
January 29, 2019
Virginia Workers’ Compensation Commission Claim No. VA00000463553
Statement of The Case
State of West Virginia Executive Department At Charleston
Executive Order No. 9-20 Covid — 19
Commonwealth of Virginia Office of the Governor Executive Order
Number Fifty-One (2020)
Declaration of a state of Emergency Due to Novel Coronavirus (Covid-19)
I, Marty D. Foust, (the Petitioner) live in Princeton, West Virginia. I am a 65 year
old Black American. My Industrial accident happen on April 18, 2011, at
Lawrence Brothers’ in Bluefield, Virginia. When my shirt caught on fire, while I
was welding at my welding station. I was 55 years old when this accident
occurred.
I received Deep Third Degree Bums on my chest, left arm, flank and back. Shown
on the pictures that I am sending this court. And what the respondents
Did to get their false claim of Res-Judicata. When one of the Judges interrupted
me. And I forgot that instance what I had rehearsed for weeks what to say to the

16

Judges. I froze. I didn’t get to explain, why the false - claim of Res-Judicata
should be denied. At the writ hearing held in Richmond, Virginia.
And when I got the email from Muriel Pitney and what happen at the Writ
Hearing. I said to myself I better get me an attorney for this petition for a
rehearing.
So on April 4, 2020,1 the Petitioner wrote to the Virginia Supreme Court to ask the
Court and Justices for an extension of time (60 days), because I didn’t know how
long the Covid-19 would last. When the Supreme Court of the U.S. read the
documents that I am sending you. You will read that I did not ask for a court
appointed Attorney! Because this is a violation of my 5th and 14th Amendment.
On March 2, 2020,1 appeal the decision of the lower Court, the Virginia
Court of Appeals and the Virginia Workers’ Compensation Commission. I wrote a
Petition after the VA Court of Appeal decision at the Writ-Hearing, “(for lack of
jurisdiction) to the Virginia Supreme Court.
On April 1, 2020 at 5:52 pm. I get an email from, Muriel T Pitney Stating
that I need to correct the petition. So the Coronavirus (Covid-19) broke out Both
states, West Virginia and Virginia. Executive Orders stated that all people should
not to leave their States. Especially elderly people with Medical Condition. Iam
65 years old with a lot of medical conditions. At the Writ - Hearing, I was
describing the crimes that the defendant’s did to the me the (petitioner).
On June 16, 2020,1 get another email from Melissa Layman, with an order from
the Virginia Supreme Court stating that motion for a Court Appointed Attorney
was denied but the documents I wrote to the Virginia Supreme Court on April 14,
2020. State’s that I never asked for a Court Appointed Attorney. But I asked for
an extension of time (60 days) to find my own attorney to help me with this
petition for Re-Hearing. In the Conspiracy to Obstruct Justice Act -42 U.S. C.
Section 1985 - Conspiracy to interfere with Civil Rights an Virginia Human Right
17

Act (Va. Code Ann. **2.2 - 390003). This woman, Melissa Layman has violated
my civil and human rights by writing false documentation. She is conspiring with
the defendants or Respondents.
The next set of documents I sent to the Virginia Supreme Court: explained
about the awards that was awarded to me on June 26, 2017 and January 25, 2018.
Awarding the claimant Marty D. Foust with a panel of 3 pain physician and a panel
of 3 neurologist to choose from. After seeing Dr. Bethan at the Pain Clinic in
Greensboro, NC. Dr. Betha wrote 2 prescriptions, one prescription was out-dated.
The medication was called Nortripyline. The Pharmacy gave me both
prescriptions, I took the 2 prescriptions for a few days and I had to go to the
hospital in Princeton, WV. My Primary Care Physician kept me off my Diabetic
medication for 8 months. I almost went into a diabetic coma. My blood-sugar
count was over 800. I almost died. Amy Hawks took my medical care away
without having a hearing. Amy Hawks sent me to a neurologist in Huntington,
WV named Dr. Lopez. Dr. Lopez said to me, that he do not give medical care for
patients like me. I saw Dr. Lopez one time. Amy Hawks took away my medical
care without having a hearing like it says in the Virginia Workers’ Compensation
Act.
The next set of documents I wrote to the Honorable Cleo E. Powell, Justice
of the Virginia Supreme Court explaining to her, that I did not ask for a court
appointed attorney. I did not get a response from her. It is my belief that the
clerks of the Virginia Supreme Court kept this letter or documents from her.
Because if Justice Powell would have read the Documents, she would have seen
that I did not ask for a Court Appointed Attorney. The clerks that received the
documents did not want Justice Powell to see this letter because Justice Powell
would have known this was false. This was the first set of documents I wrote to

18

Justice Powell. Someone at the Virginia Supreme Court didn’t want the truth to
come out and they are conspiring with the respondents.
On June 22, 2020,1 wrote to all the Justices of the Virginia Court. Again
trying to explain, that I didn’t ask this Court for a Court Appointed Attorney.
Someone did not want my documents to get to the Justices of the Virginia Supreme
Court. On the USPS Tracking Report, it says that my certified mail was at or
arrived at the USPS Regional Destination facility, Richmond Va. Distribution
Center June 24, 6:01pm. My mail was always at this USPS Regional Destination
facility in Richmond, Va. And was not delivered to the Virginia Supreme Court.
Someone deliberately and intentionally took my mail that I mailed on June
22, 2020 that got to Richmond, Va on the June 24,2020 and kept it until the
Virginia Supreme Court made their decision which the court denied me a re­
hearing on July 1, 2020.
What I do not understand is this. If my mail was delivered on June 24, 2020
already in Richmond Va. Where the Virginia Supreme Court is at, the USPS seen
on the package that it was to be delivered at the Supreme Court of Virginia. My
mail was supposed to be delivered to the Virginia Supreme Court where the return
receipt would be signed and sent back to my home like it has always been done.
I started to investigate on my own. After reading the report from both the
USPS tracking report and the tracking report from the USPS, in Princeton, West
Virginia.
The Richmond, Va. Tracking report says that my mail was at USPS Regional
1.
destination Facility in Richmond, Va at 6:01 pm on June 24, 2020 and on June 24,
2020.

2. So I went down to the USPS here in Princeton, WV and I ask the Postmaster,
Why hadn’t my mail been delivered to the Virginia Supreme Court. The
Postmaster went into an office and came out with another tracking report. On his
19

tracking report, it said, where the Postmaster outlined the Transit. He wrote as
outlined:

1. Left Princeton on 6-22-20
2. Processed in Charleston on 6-22-20
3. Processed in Sandstone, Va 23150 on 6-25-20

After further investigating I kept reading the report of the tracking
information on page 2 and I began t read more of the tracking report . It said that
my mail was at the Sandstone Facility on 6/24/2020 and on 6/25/2020, .
Because I knew that someone working at the Princeton, WV USPS was
telling when I mailed and where I was mailing my mail to. My mail has been
stolen or destroyed from getting to the Facility I mailed it to.
1. FBI
2. Roanoke New Paper
Implicating the Virginia Workers’ Compensation Commission and the
respondents of Workers Compensation Fraud and other serious crimes that was
done against me. There is proof that someone went into the North Hill USPS and
stole my mail that I sent to the North Carolina Medical Board, in Raleigh, North
Carolina.
I mailed my documents on June 22,2020, to the Virginia Supreme Court. It
took 24 days before my documents or mail got to the Virginia Supreme Court.
I called the clerk, Muriel Pitney at the Virginia Supreme Court and told her
what happen that my mail was delayed by USPS. She said that my mail did not get
to the Court on time. I said that it was not my fault, that it got to be a way that the
Justices can do something about this. She said that your mail did not get to the
Court on time and again I said that it was not my fault, that the mail was in
Richmond, Va. It was not my fault that it was not delivered to the Virginia
Supreme Court I read Rule 29. Filing and services of Documents; Special
Notification; Corporate I talked to a clerk at the United States Supreme Court. He
20

said, as long as I get the mail; mailed on time and sent by Certified mail with the
postmark stating the date and time, that my mail was good. I read the Va. Code
17.1-222, section 17.1-222- (Failure to make a report) and Va. Code 17. 1-202
(Clerk, etc., of the Supreme Court not to act as counsel. That how Muriel Pitney
acted, that statement that was made that I asked for a court appointed attorney was
a false statement made by her (Muriel Pitney). Melissa Layman and Douglas
Roelen, clerks of the Virginia Supreme Court Va. Code 18.2-171.
I wrote to the honorable justice Cleo E. Powell of the Virginia Supreme
Court on July 13, 2020, explaining to Justice Powell what happen to the mail I sent
to the Virginia Supreme Court. That it was delayed for 24 days by the USPS and I
didn’t ask for a Court Appointed attorney.
On July 17, 2020,1 get a email from Muriel T. Pitney (clerk) stating that
your request for the Court to reconsider the June 16, 2020 order denying you
appointed counsel, but I did not ask for a Court Appointed Attorney, when the
Justices of the United States Supreme Court read the letter or documents that I
wrote to the Virginia Supreme Court dated- April 14, 2020, the Court will read that
I never asked for a Court Appointed Attorney. This is a false statement made by
the Clerks of the Virginia Supreme Court; which I have named in this Petition.
Muriel T. Pitney goes on to say, additionally, your correspondence to Justice
Powell was refeired to me for a response. Muriel Pitney did not say who referred
her. Muriel Pitney and all the clerks were to report to the Justices of the Virginia
Supreme Court, that the mail that Marty D Foust (the Petitioner) mail was delayed
24 days by the USPS that the Petitioner mailed out on June 22 , 2020.
There was no correspondence from the Clerk’s Office that the clerks
reported this.
I went to my mail box and there was 2 return receipts. Both dated July 16,
2020 I received both of these return receipts on July 23, 2020 at my home. They
21

are wanting to make you think that the documents mailed out on June 22,2020 and
July 13, 2020 both came to the or delivered to the Virginia Supreme Court on the
same day. It is my belief that my mail was already at the Virginia Supreme Court.
It was held there until the Justices made their decision on July 1, 2020.1 have
mention before in this petition, that the respondence got or have people working in
the USPS committing mail fraud. It is no coincidence that mail sent out on June
22, 2020 and July 13, 2020 should arrive on the same day (July 16, 2020). How
can the document I mailed be in two places on the same dates? In Richmond
Virginia and Sandstone Va. As it is explained in the USPS tracking report and the
tracking report I got from the Postmaster here in Princeton, WV one time in a
million! Someone is not telling the t ruth about the delivering of the mail.
The Court of Appeals of Virginia
After investigating my Virginia Workers’ Compensation Webfile, I came
across, where awards were changed. Where the claimant or Appellant (Marty D.
Foust) award was changed awarding him to go back to Wake Forest Baptist
hospital. Without his knowledge of the award had been changed it like it was done
in secret by Commissioner Burkholder of the Virginia Workers’ Compensation
Commission. He was writing false case law, so the defendants would go m his
favor or that his opinion would go in the Defendants favor, The Commissioners’
that worked on my case was committing Workers Compensation Fraud and other
serious Crimes and Attorney also, Dr. Ajam, Insurance Co. (Amerisafe) or
American Interstate Insurance Co. and even the Attorneys that I hired also
conspired together to sabotage my Virginia Workers’ Compensation Claim.
Here are the details as they occurred:
May 14 , 2018,1 wrote to the Virginia Workers’ Compensation Commission.
Asking them to send me a list of all the Documents that was sent to my Virginia
22

Workers’ Compensation Webfile. With the time date and year that all the
documents were sent to my Webfile; because I knew what they were doing. They
were committing crimes against me. I knew that every piece of mail that is sent
electronically, has the time, Month and year on the document, So I read this code,
which is, 2014 Virginia Code, Title 65.2, Worker Compensation, 65.2, Subpoena
power of the Commission production of records ad papers.
I get a letter from Jeremiah Smallwood. Stating that they were unable to
provide you with a list of time for which each document was filed.
I knew that this was false, because they’re right in front of me. Was a
document sent to the Virginia Workers’ Compensation Commission from the
Appellant’s Insurance Company. With the time, month and year. It was on the
cover sheet.
I wrote to the court of Appeals numerous times, asking them to get the
records or list of the records with the time, Month and year.
On July 30, 2018,1 even sent a check of $12.00; to the clerk of the court of
Appeals of Virginia; asking them to subpoena the records which has the time,
month year on the documents that was sent to my Virginia Workers
Compensation Webfile. So that I could finish my opening brief and prove that the
Commissioners’ who worked on my case and the defendants and the attorneys that
I hired was conspiring together to sabotage my Virginia Workers Compensation
Claim and to prove that they were committing Workers Compensation Fraud and
other serious crimes against me (the appellant).
On September 18, 2018,1 wrote to the Court of Appeal of Virginia, asking
them to get the records from the Virginia Workers Compensation Commission.
With the time, Month and the year so I could finish my opening brief.

23

The Virginia Court of Appeals granted me another extension of time on a
different occasion October of 2018; but on November 9,2018, the court of Appeals
of Virginia gave me one final extension.
I was still waiting for a response from the letter I wrote to the court of
Appeals of Virginia on September 18,2018. My deadline to get my opening brief
was on November 9, 2018.
I did not get a response from the Court of Appeals of Virginia until
December 6, 2018. Stating the Court does not investigate or have the legal
authority to investigate. They could have emailed this letter. Having me to wait
until September 18, 2018 to December 6, 2018 to get this letter.
My deadline was November 9, 2018. I waited and waited for a response
from the Court of Appeals; but nothing never came from them. I mean the records
with the time, Month and year. When on November 7, 2018; I had to work real
hard to get the documents in order. About 2:00 pm while working on my brief, I
fell asleep at the kitchen table, because of all the medication I was taking for my
medical conditions which was caused by the bum injury.
When I woke up it was about 4:30 pm; I was in a hurry to complete my
opening brief. I did not put the Authorities on the right page or where they needed
to go. It was a harmless mistake.

In haste, I thought that I was putting the

Authorities in the right place; but I put it in the appendix Instead of the pages
where they need to go.
On January 29, 2019; the decision was made on merits, because I did not
have the Authorities on the right pages. The Court of Appeals made their decision
in favor of the defendants res-Judicata Claim which was contmed or by Worker
Compensation Fraud and other’s serious crimes. Against the Appellant in this
case.

24

Virginia Workers’ Compensation Commission Jurisdiction
Claim No. Va. 00000463553
On April 18,2011; I had my Industrial Accident in Bluefield, Virginia.
While I was working at Lawrence Brothers. I was welding at my Welding station
when my shirt caught on fire. I was welding all morning long until I went outside
to drop an empty Argon tank and get a full tank of Argon. While on the way going
outside to get a tank of Argon and drop the empty one; I passed by a door on my
left side and it began to be opened (an overhead door). I did not pay any attention
to it, so I continued outside. On the way back the overhead door was closed. So I
continued on back to my work station. So when I got back from my work station, I
hook up my hoses to my welding machine and started back welding. I was
welding about a few seconds and before I knew it was on fire. There was no fire
watch, like it is required by OSHA. Nobody was around at first, So I beat and beat
the fire with my welding gloves and plus I rolled on the floor like they always told
us to do when on fire. The fire was getting to me and I thought I was going to die.
I began to fall, when one of my co-workers caught me as I was beginning to fall to
the ground. He helped me with the fire, but the fire kept spring up, we finally got
the fire down. My co-worker went to get help, I still was laying in those hot ashes
on my back. I laid there a long time. Until the owner and medical help came. As
they were examining me, the man that drove the ambulance look at me and then he
said that I was in very bad shape. The ambulance took me to a helicopter and they
few me down to Wake Forest Baptist Hospital - Bum Unit, located in WinstonSalem, North Carolina.
I received skin graft and I could not raise up my left arm. They had to do
surgery to get my arm to raise up. The pictures that I am sendmg the United States
Supreme Court, you will see an indent in left shoulder where they cut me and took
flesh from side to fill in the cut that was made. While there the very first time I
25

saw the Doctor, he asked me where was I hurting? I said my chest, left arm, side
and back. I told the Doctor that I laid in hot ashes, before the medical team
arrived. From April 18, 2011 until they discharged me. I complained about my
back. It is documented in Nurses daily chart. They did not say anything about my
back. That was the injuiy to my spine. When the hospital (WFBH) discharged
me

. The defendants and their insurance C. Was supposed to give me a Doctor for

all my medical condition.
1. A panel of pain management 3 physicians to choose from.
2. A panel of 3 neurologist to choose from.
3. A panel of 3 orthopedic Surgeon to choose from.
4. A panel of 3 neurosurgeons to choose from.
At that time, I did not know about the Virginia Workers’ Compensation Act.
I hired an Attorney, Charles Stacy, and the Defendants took advantage of me
because I did not know the VWC Act.
They (the defendants) were supposed to give me a panel of 3 physicians for
al of my medical conditions when I got out of the Hospital (WFBH) . The
defendants did not give me no panel of Doctors to choose from. It was in 2018
that the defendants gave me a list of 3 pain management physicians to choose

from.
Average Weekly Wage
Mark Strole, the defendants Insurance Agent, came to my home in
Princeton, West Virginia in 2011. He told me I would be getting over $900.00 per
They kept their word. I started getting letters from the Virginia Workers’
week.
Compensation Commission. That I did not understand. I knew that the
Defendants and their Insurance Company and the VWCC was setting me up for
something.

26

My girlfriend said to me Marty you better get an Attorney to help you with
your CASE. I went to Bluefield, Va. And I hired Charles Stacy thinking that he
was a honest attorney, but he wasn’t.
A lot of things were going on that lead to a hearing that would be held on
January 4, 2012. I did not know what the hearing was for. But it was for the
weekly average wage. Charles Stacy did not call me like it is required in the
Professional Conduct of the Virginia Supreme Court. No body was at the hearing,
no claimant, no Attorney, No Insurance Agent - no one. Commissioner Burchett
was over the hearing. Commissioner Burchett and the Defendants and their
Insurance agent Mark Strole and the attorney that I hired Charles Stacy took
advantage of me and cheated me out of over $300,000.00 plus interest. The reason
I says that is because there is a Cod of Virginia Title 65.2, Workers
Compensation, Chapter 1, Definition and general Provisions 62.2-101. Definitions
as used in this title.
Average Weekly Wage means (1) When for exceptional reason the foregoing
would be unfair either to the employer or employee, such other method of
computing average weekly wage may be resorted to as will most nearly
approximate the amount which the injured employee would be earning were it not
for the injury.
I never knew what this code meant and saw a chart that Melanie ProttiLawrence sent to the (VWCC). The chart was called a Wage Chart that
determined the weekly wage for an injured employee if he didn’t get hurt. The
Wage Chart had 52 weeks on it. This is why, the defendants and the insurance
Company started paying over $900.00 a week.
That is why they cheated me out of the money by not having the hearing that
was suppose to be held on January 4, 2012. No one was there. Commissioner
Burchett wrote his opinion in one day, January 5, 2012 and that why my Attorney
27

Charles Stacy did not go. Because they all were trying to cheat me out of the
money that was owned to me. They all took advantage of me, because I didn t
know the VWC Act. That is why I hired an Attorney. But Charles Stacy was
dishonest.
May 2012, The Virginia Workers’ Compensation treating physician, (pain
management physician named, Kamal S. Ajam prescribed a medication called
Atarax that caused me to have a stroke. To try and cover up his mistake, he went
back into medical records and changed the drug profile. The drug profile first read
(no known allergies). One month later Dr. Kamal S. Ajam changed the drug
profile to allergic to Atarax. Thinking that no one would find out what he done;
but, there is a God in Heaven if he did know. I did not choose Dr. Ajam, the
defendant and their Insurance Company chose him. I did not know that Virginia
Code that I mentioned because I would not never choose Dr. Ajam, because he told
me he only had one year experience. I asked Dr. Ajam if he ever care for a bum
injury patient, he said “No”. That stroke could have blinded me or killed me. In
the Princeton Community Hospital medical records and the Wake Forest Baptist
Hospital (Wake Forest 1 Tech Access Center information on page 3 tell that I lost
my sight for a while, it is scary. Dr. Ajam tried to hide what he done.
In 2013,1 had another stroke caused by Dr. Ajam. The defendant tried to get
me to settle my VWC Claim. I told them, “No”; because I have medical condition
that needed to be addressed. I just had 2 strokes and other medical conditions that
needed addressed. What the defendant was going to do was pay me with the
money that they cheated me out of. That Commissioner Burchett and Charles
Stacy conspired together to cheat me out of. When I did not settle my claim with
them, they came up with another scheme to try and get me to settle my workers’
compensation claim. It was an Order Response Form sent to the (VWCC) by
Charles Stacy. Defendants and their Insurance Co responded to this order stating
28

reason : Denied based on Claimant’s engagement in medical management. They
figure out that if they took away my medical care, that would get me to settle with
them. Only one thing, it was illegal to do what they had done to me. To take my
medical care away without a hearing. I was awarded a lifetime medical award
from Virginia Workers’ Compensation Commission. Commissioner Burkholder
knew this and also the defendants and my attorney, Charles Stacy knew that the
defendants Insurance Company couldn’t take my medical care away without a
hearing. I always thought that their Attorney was supposed to fill out the order
form not the Insurance Agent (Mark Strole). I think the attorney for the defendants
knew that was a false claim and this is why the attorney (Ramesh Murphy) didn’t
fill the form out. This is a legal document. Falsely wrote by the Insurance Agent
and this form and everything is illegal about it. I am the claimant I am already
en gaged in medical management because I am the injured worker.
The Hearing of August 26, 2014, held in Lebanon, Virginia with drew my
claim for a panel of 3 physicians and asked for a panel of 3 neurologist to choose

from. In the opinion of October 28, 2014, made by Commission Burkholder, he
awarded me to go back to Wake Forest Baptist Hospital. This is what the award
states : “We note that the presented medical evidence does not indicate the Dr
Badlins has been removed as a treating neurologist in this case and the claimant
may return to that physician for additional care that is related to the work accident.
After weeks and months past, I called Mark Strole, the Insurance Company
(adjustor) for the defendants. I called and left voice - messages after voice
messages. No telephone call came from Mark Strole. I went to the computer and
went bac to look up the October 28, 2014 opinion made by Commissioner
Burkholder. After reviewing the opinion, I saw that award had been taken out and
changed. Without my knowledge of it being changed. Commissioner Burkholder
went back into my webfile and changed the award and put into it place the same
29

panel of 3 pain management physicians that I withdrew from at the hearing of
August 26, 2014 as the award.
On April 3, 2015, the Defendants asked or requested of the Deputy
Commissioner Burkholder opinion dated October 28, 2014 ordering the provision
of a new panel of pain management physician from which the claimant may choose
a physician. Then it says, we reverse and vacate the ordering of a panel of pain
management physicians. This opinion was made by Commissioner Williams and
Reviewed on record Commissioner Williams, Commissioner Newman and Chief
Deputy Szablewica at Richmond, Virginia. In this opinion even the defendant said
that I withdrew from the claim of a panel of 3 pain management physicians at the
hearing of August 26,2014, on page 4 of the April 3, 2015 opinion made by
Commissioner Williams, you will find the award taken out of the opinion of
October 28, 2014 made by Burkholder.
Awarding me to go back to Wake Forest Baptist Hospital, that s in WintonSalem, North Carolina. All these Commissioners that are named in this opinion of
April 3, 2015 and plus the defendants knew that I withdrew my claim of pain
management physician. And without medical care, they thought I would die, so
the defendants would not have to pay a large Doctor bill. That is what the
Commissioner and the Defendants were trying to do. By this time, I had not
received any Medicare from the defendants and their Insurance Co for 2 years,
only care from my primary care Physician. I was a life-time medical awardee.
This is the beginning of defendants false claim of Re-Judicata. How the
Commissioners’ of VWCC and the defendants and their insurance co, and even the
attorneys that I hired to represent me. Conspired together to sabotage my VWC
claim.
For additional proof in defendant’s brief in support of their request for
review dated January 7, 2015. States that the claimant did with draw from the
30

panel of 3 pain management physicians at the hearing of August 26, 2014 in
Lebanon, Virginia.
The Hearing of November 9, 2015, held in Lebanon, Virginia Commissioner
Burkholder, presiding. The defendants file an Employer’s Application stating that
I (the claimant) could return to work at Lawrence Brothers’ to do my job as a
welder, per Dr. Wilson. IME report and that any continuing disability is not
causally related to the compensable injury. The issue was about the stroke I had in
2012 and the spinal injury. By this time, I had strokes in 2013, 2 in 2014 and 1
more in 2015. Altogether it would be 5 strokes in all. In 2015 I saw a neurologist
in September of 2015. Her name is Dr El Hussein, and in the Wake Forest 1 Tech
Access Center, information, Dr. El Hussein states, Hx of stroke associated with
bum injury, and issue with memory.
I saw Dr. El Hussein in September of 2015 and on September 29, 2015, she
sent me to get MIR’s of my brain and spine. Because I told her I was havmg
problem walking. Dr. El Hussein made me an appointment to get the MRIs done.
An at the IME appointment, I brought all my medical records to Dr.
Wilson’s doctor office and gave it to the receptionist. I do not know what she did
with the medical records or even if Dr. Wilson read them. Since Dr. Wilson was
hired by the defendants, he probably didn’t even read the medical record, Because
if he read the medical reports, he would have seen that I had 5 strokes since 2012.
I turned in medical records to the VWCC, showing them that I have had four
strokes since I had the stroke in 2012, caused by Dr. Ajam medication (Atarax).
From the beginning of my case about the stroke of 2012. The VWCC only
wanted to discuss, but one stroke not the other four as explained by Dr. El Hussei.
The VWCC did not want to compensate me for the other four strokes. The Spinal
injury that is documented in the medical records from Wake Forest Baptist
Hospital. In 2011,2012 and it in the Nurses’ Daily cart and in Dr. Ajam medical
31

records documented in 2012. It was not called (Doral Thoracic Arachnoid Web.
All of these hospitals that you go to for medical care, they don’t tell the truth about
a patient’s medical condition or tell you what cause them. If they are paid by the
Insurance Company lie for them. Because the Insurance Company tells them too.
The hospitals can get more patients from them.
Dr. Ajam gave me a nerve block in the wrong place in my back, Dr. Ajam
did not even send me to et MRIs, to show where the injury was at.
1. The injury was not at the T9, T10, T11 and T12. Levels
2. 2 neuro-Surgeon’s look at the MRI’s tht I had done in Septempter 29, 2015 and
saw where my injury was. The injury was at the T7 Level. Dr. Cara Sedney and
Mark ShafferyI hired an Attorney named Aaron Thomas from the Law Firm of Agnew and
Rosenbury.
The Opinion of Commissioner Burkholder, Commissioner Burkholder wrote
2 opinions. One of the opinions dated March 4, 2016 and the other one dated
March 24, 2016.
The reason for this was I told Aaron Thomas that both of Commissioner
Burkholder opinion was bogus and he was writing false case law just so his
opinions would go in the defendants favor.
The Commissioner (Burkholder) wrote about Compensable Consequence
under Virginia Law. What Commissioner Burkholder wrote was false about the
Compensable Consequence, What the Commissioner was trying to make me think
that the way he explained it was that the Compensable Consequence would not
cover my injury.
But luckily, I was on my Computer and look what this term Compensable
Consequence meant. I was looking on my computer I saw what Mr. Joe Miller
said and he also is an Attorney in Virginia Mr. Miller posted on Friday May 29,
32

2015 at 12:00pm. It reads (The notion of Compensable Consequence under
Virginia Law means, “When a new injury occurs as a result or consequence of
your work, then you can recover from the new injury. You can recover for the new
injury. Remember that Dr. El Husseini said I had a Hx of strokes associated from
the bum injury. Commissioner Burkholder was trying to help the defendants not
compensate or pay or give me medical care for the 4 strokes I had after the stroke I
had in 2012 caused by the medication that Dr. Ajana prescribed to me (the Atarax).
I read the Opinion that Burkholder wrote, March 4, 2016 and March 24,
2016 then I called Aaron Thomas and told him to appeal Burkholder decision of
the Opinion. Aaron Thomas told me he would. So I got a phone call from Patrick
Agnew, telling me that he fired Aaron Thomas. Patrick Agnew asked me if he
could take over my case. I said, yes. That was a mistake; I called Patrick Agnew
40 times and left him voice-messages telling him to appeal Commissioner
Burkholder Opinion. I never got him on the phone or no response from him. He
Patrick Agnew intentionally let the appeal expire. After 3 month I called him on
May 19, 2016, the first thing that came out of his mouth was, Marty how about
settling with the defendants. I fired him the same day. That same day, he wrote to
the UWCC and asked them for a panel of pain management physicians. When I
did tell him to do anything for me, because I had fired him.
Every Attorney that I hired misrepresented me, everyone of them. In 2017,1
hired an Attorney named Mark Hurt. I got an Opinion made by Commissioner
Marshall, March 8, 2017. In this opinion it is the same as the Opinion of April 3,
2015. Opinion made by Commissioner William. It says the same thing, “we fmd
that the claimant has not advised the defendants and the Commissioner what type
of physician he is seeking.
I knew that this was false. So I hired Mark Hurt. I even signed a contract.
The contract said that he would help me with all my legal matters. I brought the
33

March 8,2017 Opinion made or wrote by Commissioner Marshall of the full
commission with me and showed him that this was false. They knew what kind of
physician I asked for because it is documented in the transcript of the hearing of
August 26,2014. I think that they thought I had forgot what was written in my
VWC webfile. So Mark Hurt said he would help with the appeal; But a few days
later Mark Hurt called me to come down to his office in Abingdon, Va. So I went.
I get down there, he come telling me it I appeal the March 8, 2017 opinion to the
Court of Appeals of Va. That he cannot help me. I knew then that Mark Hurt had
been conspiring with the defendants and the Commissioners, This would have
proven to the Court of Appeals of Virginia that Commissioner Marshall was
committing Va. Workers compensation Fraud and other crimes against me. The
Commissioners of the VWCC, who work on my VWC Claim and the Respondents
did not want me to get the proper medical that I was entitled too. For the fear, that
the whole truth would come to surface. The respondents Claim for Res-Judicata
would be denied. It was engineered and construed by Workers’ Compensation
Fraud, as it has been done all through my case.
I sign a contract with Mark Hurt and told him that the contract said that you
would represent me with all my legal needs. I was forced to withdraw from
appealing the March 8, 2017 Opinion of Commissioner Marshall. I was in a rock
and hard place.
The respondents and the Commissioners were running all over me. Every
Opinion that was made by different Commissioners always went in the favor of the
respondents. “I ask myself a question”, How can this be? I am the one that has the
deep third degree bums, 6 strokes, 2 tumors and a spinal injury. I can not use my
left arm and about 23 other medical conditions that I did not have until I had the
Industrial accident Something is wrong with the picture.

34

I had already filed the appeal to the Court of Appeals of Virginia.
Commissioner Marshall, March 8, 2017 Opinion. I had this Commissioner
Marshall in the palm of my hand and I let Mark Hurt talk me out of my appeal.
The respondent lives and work in the same location that Mark Hurt work and live.
I thought that hiring Mark Hurt would help me. He messed up my case!
Commissioner Marshall wrote this March 8, 2017 in favor of the respondents, this
is how it has been through out my case or claim. This was Workers’ Fraud, not
telling the truth, writing false statements. That is why I say that the
Commissioners tell the Attorneys what they are to do! Court of Appeals of VA
Record No. 0526-17-3.
Just like in the Opinion of September 15, 2017. Mark Hurt asked the
VWCC to review the March 24, 2016 Opinion made by Commissioner Burkholder.
The September 15, 2017 was made by Commissioner Rapaport. First of all,
Commissioner Burkholder, wrote false case law. My attorney at this time was
Patrick Agnew, who let my appeal run out. I mean Patrick Agnew let the time
expire to appeal the Burkholders March 4, 29 2016 Opinion. I knew that this
March 4 and 24, 2016 was fraudulent, Patrick Agnew knew it too. This is another
example of the attorney doing what the Commissioners tell the attorney what to do.
When you (the claimant) ask the attorney that he hired to represent him (the
claimant). The claimant asked his Attorney to appeal an opinion that the Claimant
knows that the March 4, 24, 2016 opinion was fraudulent and the Attorney that he
hired (Patrick Agnew) does not do what the claimant ask. What need of hiring an
Attorney. When you know that all through my CASE it has been like this.
In 2015, the employer file an Employer’s application stating that I could go
back to work. The Employer and their Insurance Company kept my Average
Weekly checks for a whole year. After I started back receiving my checks, they
paid me a lump sum. This was also connected to the March 4, 24, 2016 Opinion.
35

At a meeting with Aaron Thomas, I told him that the March 4, 24,2016 Opinion
Made by Burkholder was Fraudulent. This was false Case law. He wants me to
Believe that this was correct. Just before I fired him, I told Aaron Thomas who
was an attorney for Agnew and Rosenburg, that I did some research on the topic of
compensable consequence. I showed Aaron Thomas the evidence I had on the
topic of compensable consequence, by an Attorney named Joe Miller. It does not
say what Burkholder wrote in his March 4, 24, 2016 Opinions. I told Aaron
Thomas that Commissioner Burkholder’s Opinion was Fraudulent and bogus. I
fired Aaron Thomas because he wanted me to believe a lie. There was only one
Opinion made by Commissioner Burkholder and it was the March 4, 2016
Opinion. I guess Aaron Thomas got mad and called Commissioner Burkholder.
One day I went to my mailbox and there was another Opinion dated March 24,
2016. I did not think that a Commissioner could write 2 Opinions on the same
subject; but Burkholder did. I got an email from Aaron Thomas telling me that
Commissioner Burkholder was sending letters out telling all the Attorneys that
represented me to ask the Commission to take the money of the lump sum check
that I owed to them for representing me. But no Attorney did anything on my
behalf. I guess they were paid for conspiring with the respondence and the
Commissioners. I did not with draw from this Opinion.
The Opinion by Commissioner Burkholder, dated June 26, 2017, on the first
page, at the bottom of the page of the June 16, 2017 Opinion, Commissioner
Burkholder wrote at the May 17, 2017 hearing, the claimant insisted that he had
received third degree bums in the compensable accident. This issue is immaterial
and moot because the claimant has an award in place for his bum injuries, If I had
a life time award, why did it take the respondents 6 years to send me to the
physician I needed to go to? I would get award, but the respondents would never

36

send me to the Physician that I need to go to. Like in the Opinion of March 4, 24,
2016. I was awarded to have medical benefits provided in Code 65.2-603 to be
continued for as long as necessary to treat injuries sustained in this accident. In
the March 8, 2017 Opinion made by Commissioner Marshall. Marshall states in
the March 8, 2017 Opinion, that the Commission and the respondent did not know
what kind of Physician I asked for or needed. This was a fraudulent Statement.
The respondent and Commissioner knew just what kind of Physician I asked for, it
Is in the defendant review dated January 7,2015; Commissioner Williams Opinion
April 3, 2015, Commissioner Lee Opinion October 14, 2016 and the hearing of
August 26, 2014. This is why Mark Hurt did help me with my appeal to the
Virginia Court of Appeals. He was conspiring with Marshall and the
respondent, because if it got to the Court of Appeals of Virginia. The court
would have known that they were committing Worker Comp Fraud like they
have been doing all along in the course of my Case. Commissioner Burkholder
goes on to say, whether they are second degree or third degree bums, the Doctor
said that I had deep third degree bums. Deep third degree bums are more serious
than any second degree bums. The Commissioner here want you to think that my
bums were not that serious. Furthermore, Deputy Commissioner Burchett’s
January 5, 2012 Opinion is long since final. It was a hearing scheduled for
January 4, 2012. No one was there. The hearing was to discuss my weekly
Average wages. Melanie Lawrence put a wage chart into my webfile.
Like it said in the Code of Virginia, Title 65.2. Worked Compensation,
Chapter 1. Definition and General Provisions. 65.2-101. Definitions. As used in
this title. “Average Weekly Wage” mean b. When for exceptional reasons the
foregoing would be unfair either to the employer or employee, such other
method of computing average weekly wages may be resorted to as will
most nearly approximate the amount which the injured employee would
37

be earning were it not for the injury. The respondent started paying me over $900
a week. Then they stopped. Charles Stacy was my Attorney at this time of
my VWC Claim or case. I hired Charles Stacy in September of 2011. Charles
Stacy got the same letter from the VWCC dated December 8,2011. Charles
Stacy didn’t call me to discuss the issues that will discuss at the hearing or
l

Tell me to be there early. He never called me to let me know anything. I
didn’t know anything about average weekly wages.
1. No one was at the hearing
2. I wasn’t at the hearing
3. Charles Stacy wasn’t at the hearing
4. The Respondents wasn’t there either
5. No written statement
I
6. No appeals
My question to the Justices’ is, how can a Commissioner of the VWCC write an
Opinion when no one was there to discuss an issue like a Claimant’s average
weekly wage. The Commissioner (Burchett), Respondents and Charles Stacy; all
of them conspired together to take advantage of me because at this time I didn’t
know anything about Codes, Rules or the Worker Compensation Act. I was
worried about getting well. That why I hired an Attorney. That’s why I am saying
that every Attorney that I hired misrepresented me in my Virginia Workers’
Compensation case. The Respondents cheated me out of over $300,000.00 plus
interest. Charles Stacy and Commissioner Burchett help them! The Awards of the
Opinion of June 26, 2017 and it reads. “Anjaward is hereby entered for Marty
Foust Claimant, against Lawrence Brothers,jInc., employer and American
Interstate Insurance Company, insurer, providing for the following medical
treatment under the Claimant’s existing lifetime medical award.

38

1. A panel of neurologist is to be provided to the claimant within 30 days from the
date of this opinion.
2. A panel of pain management physicians is to be provided to the claimant within
30 days from the date of this Opinion for treatment of the claimant’s chronic pain
3. The Employer and carrier shall be responsible for the exploratoiy surgery and
excision of the claimant’s suspected symptomatic scar neuroma.
It was in March, 2018 when I got a letter from the Respondents Insurance
Company with a panel of pain management physician to chose from. It was in
May 2019, before I was sent to a neurologist. I was supposed to choose from a
panel of 3 neurologist, but Amy Hawks picked her own choice of neurologist. It
Was just like in the beginning of my WVCC Claim, the Respondents did the same
thing and chose Dr. Ajam who gave me the Atarax medication that caused me to
have 2 strokes in 2012 and 2013, almost blinded me. This is how the Respondent
and their Insurance Company has treated me, all through my case. This is not 30
days from the Opinion of June 26, 2017. It was 9 months before the Respondents
sent me to the pain management physician and about 2 years before I was sent to
A neurologist. I was only seen one visit by the neurologist that Amy Hawks chose
for me It was all plan with the doctor she chose for me. To lie about my medical
condition. So she could discharge me from going to see a neurologist. From the
very beginning the Respondents and their Insurance Company did not want me to
go to the physician that I needed to go to. They did not want me to find out the
truth about what the bum injury caused.

Court of Appeals of VA Record No. 0196-18-3
Opinion by Marshall, Commissioner January 25, 2018. It states - a June 26,2017,
Opinion found doctrine of res-judicata barred the claim for a prescription for

39

Atarax. Dr. Kamal S. Ajam went back into the medical records on May 23, 2013
and changed the drug profile.
1. On April 25, 2013, the drug profile read no known allergies.
2. Then on May 23,2013, Dr. Ajam changed the drug profile to allergies Atarax
(Hydroxzine Hcl) hospitalized.
Dr. Ajam did not think no one would notice what he done. The Respondent
knew what he done. I knew what he done. But the defendant withheld evidence.
Dr. Ajam tried to cover his mistake by changing the Drug profile. Dr. Ajam
caused the stroke in 2012 and 2013 that almost blinded me. Dr. Ajam did this
(change the drug profile, so I couldn’t file a medical malpractice law suit against
him and the Respondents and their Insurance Company, plus Dr. Ajam had
committed Health Care Fraud. Writing false statement in Health Care matters.
Every doctor’s appointment, Dr. Ajam would inform the Insurance Company agent
Mark Strole of what was happening with me. I went to Charles Stacy office after I
got the report from Wake Forest Baptist Hospital and showed him (Charles Stacy)
the Hospital report. Charles Stacy tells me that he cannot investigate the strokes or
OSHA bum policy on fire watch. The reason that Charles Stacy gave me is that
his wife works for a hospital. I said, to Charles Stacy, your wife works in West
Virginia and this happen in North Carolina. Later, in 2017, the cause of the stroke
in 2012 was caused by a drug interaction between the Atarax medication and my
blood-pressure medication - Lisinopril. This is another example of the Attorney
does what the Commissioner tells them to do. I could have died or went blind,
Charles Stacy didn’t care.
The Thoracic Arachnoid with Cord Compression, on April 18, 2011 the day
of my industrial accident when my shirt caught o fire. There was no fire catch like
it was suppose to have been. I lay on the floor at my work station, after my co­
worker help me put the fire almost out. I was still burning and I could smell my
40

flesh as it burned. I laid in those hot ashes until help arrived. When help arrived (I
mean medical help). I was on my back, laying in those hot ashes. This is what
happen, by laying in those hot ashes on my back, the fire went deep into my back
and caused this spinal injury. I was air-lifted to Wake Forest Baptist Hospital.
When I got there, a doctor asked me where was I hurting in all the bum area?
Chest, arm (left), flank and back. Everyday I complained to the doctor that I got a
lot of pain in my back and the medication was not doing no good. If the
medication was not working, I said there must be something more serious. Every
single day I told Dr. Holmes that the medication was not working. Every morning
he would tell me this “We will address this in the morning, but the morning never
came. My back pain was my spinal injury at its early stage. My back pain is
documented in the nurses’ daily chart in my medical record. On April 16, 2012,
Dr. Ajam writes in my medical records, since the patient may be suffering from
hyperalgesia, though he may just have a brand new cause of back pain and leg
pain. This was not no new back and leg pain. This is documented in the Nurses
Daily Chart from April 18, 2011 until the last day at the WFBH which was in May
2011.
In 2012, May 28,2012, when I went back to WFBH for the stroke Wake
Forest Baptist Hospital did a full MRI from head to toe. This is the spine report
and what it said, Degenerative changes in the cervical spine with mild retrolishesis
of C5 over C6 of approximately 2 to 3 decreased intervertebral disc place with
uncovertebral joint hypertrophy causing mild bilateral neural foramine narrowing
at this level.
Now its January 2021, from May 28, 2012 until January 2021, you know
that my spine has gotten worse. I can barely walk to the end of my drive way.
This spinal injury was not called this Dorsal Thoracic Arachnoid we in 2012.
What they did was look up in a medical book, the Dorsal Thoracic Arachnoid
41

laws that benefit the Employer not the Injured Worker. The Petition for a writ of
certiorari should be granted.
Respectfully Submitted
Marty De La Fayette Foust

